APPENDIX

MANDATE
Kid teaad as Mandate Under fiHSop.aB.24

&-Ajm

i-pt'pv)
Date

THE STATE OF HEW HAMPSHIRE
SUPREME COURT
In Case No. 2020-0297, Bahoucar Taal v. St Manr*s Ran*;

Baboucar Taal v. Hiedegmai»t
and Lindsey & a., the court
on April 29, 2021, Issued the following order:

s

Supreme Court Rule 22(2) provides that a party filing a motion for
rehearing or reconsideration shall state with particularity die points of law or
fact that he claims the court has overlooked or misapprehended.

f

!
i

We have reviewed the dawns made in the motion for clarification and
reconsideration, and we conclude that ito points of law or fact were overlooked
or misapprehended in our decision. Accordingly, upon reconsideration, we
affirm our April 1, 2021 decision and deny the relief requested in the motion.
Relief requested in motion for
clarification and
reconsideration denied.
Hicks, Bassett, Hantz Marconi, and Donovan, JJ., concurred.
Timothy A. Gudas,
Clerk
Distribution:
Hillsborough County Superior Court North,
216-201 l-CV-00741; 00742
Honorable N. William Delker
Mr. Baboucar Taal
Emile R. Bussiere, Jr., Esq.
Brittany Stacey, Esq.
Gregory T. Uliasz, Esq.
Lin Willis, Supreme Court
File

i
i
?

I
fi

MANDATE

IfittaMbte Under HHSdjxaH2«
Date

THE STATE OF MEW
SUPREME COURT

In Case No. 2020-0297, Baboucar Taal v. St Mary's
Baboucar TmI Nlederman. Stanzel and Lindsey A a., the court
on April 1, 2021, issued the following order
On June 22,2020, the plaintiff, Baboucar Taal, filed a notice of appeal
listing two superior court cases: Baboucar Taal v- St. Mary's Bank. No. 2162011-CV-00741, and Baboucar Taal v. Niedennan Stanzel & Lindsey. P1LC & a..
No. 216-201 l-CV-00742. On June 29, 2020, and again on September 2, 2020,
the plaintiff was ordered to “file a copy of the decision below, the clerk's written
notice of the decision below, any order disposing of a timety-filed post-trial
motion, and the clerk’s written notice of any order disposing of a timefy-filed
post-trial motion.” See Rule 7(6). The plaintiff only partially complied with this
order, however. Because the plaintiff has failed to file with this court a copy of
the trial court decision in Baboucar Taal v_ Nfederman Stanzel & Lindsey. FLLC
&a.. No. 216-201 l-CV-00742 that he intends to appeal, his appeal as it relates
to that case is hereby dismissed.

S

?

1

As to Baboucar Taal v. St Marv^sRanlr No. 216-201 l-CV-00741, having
considered the briefs and record sub I ill 1*0.1 cm appeal, the court concludes that
oral aigiimpfit is unnecessary in this case, see Sup. Ct. R. 18(1), and that the
appealing party, the plaintiff, has not established reversible error, see Sup. Ct R.
25(8); see also Gallo v. Traina. 166 N.H. 737, 740 (2014).
Affirmed in part and
dismissed in part
Hicks, Bassett, Hantz Marconi, and Donovan, JJ., concurred.
Timothy A. Gudas,
Clerk
!

Distribution:
Hillsborough County Superior Court North,
216-201 l-CV-00741; 00742
Honorable N. William Delker
Honorable Tina L. Nadeau
Mr. Baboucar Taal
Emile R. Bussiere, Jr., Esq.
Brittany Stacey, Esq.
Gregory T. UKasz, Esq.
Carolyn A. Koegler, Supreme Court
Lin Willis, Supreme Court
File

i

E

i

I

THE STATE OF NEW HAMPSHIRE
SUPREME COURT
In Case No. 2020-0297, Baboucar Taal v. St. Mary's Bank;
Baboncar Taal v. Niedermam Stanzel and Lindsey & a., the clerk
of court on September 2, 2020, issued the following order:
Baboucar Taal has only partially complied with the June 29, 2020 order.
On or before September 17, 2020, Baboucar Taal shall file a copy of the
decision below, the clerk’s written notice of the decision below, any order
disposing of a timely filed post-decision motion, and the clerk's written notice of
any order disposing of a timely filed post-decision motion. See Rule 7(6). Failure
to comply with this order may result in dismissal of the appeal.
This order is entered pursuant to Rule 21(8).

Timothy A. Gudas,
Clerk
Distribution:
Mr. Baboucar Taal
Emile R. Bussiere, Jr., Esq.
Brittany Stacey, Esq.
Gregory T. Uliasz, Esq.
File

matt Bt &M IfrwMn
Superior Court

HUIgborougb -J&ortl)
BABOUCAR TAAL

V.
ST. MARY’S BANK
No. 216-2011-CV-0741
ORDER
The plaintiff has filed a motion to reopen this case, a motion to remove the
defendant's law firm, and attempted to subpoena at least one witness. The defendant
has objected to all of the motions and filed a motion to dismiss

. The defendant's

set forth in detail the procedural history of the ptainfitfs fitigation campaign.
pleadings
xpend more judicial resources by reciting the background . Based
This Court need not e
related federal litigation, the Court finds
on the procedural history of this case and the
that the plaintiff’s motion to reopen

is frivolous and designed to harass the defendant.

See RSA 507:15. The plaintiffs motions to reopen

the case and disqualify the

defendant's law firm are DENIED. The motion to quash the subpoena of Owde
Lamontagne is GRANTED

. The defendant's motion to dismiss this action is therefore

MOOT.
A review of this case

, the New Hampshire Supreme Court orders, and orders

federal district courts and the First Circuit Court
from the New Hampshire and Vermont
clear and convincing evidence that the plaintiff has pursued at
of Appeals, establishes
As a result, the defendant is a vexatious litigant.
least three cases that are frivolous.

1

See RSA 507:15-a. The plaintiff shall not be allowed to file any pleadings in this case or
initiate new litigation against St Mary's Bank, Feniger & Uliasz, LLP, any lawyers
associated with that law firm, or Gillian Abramson without being represented by a lawyer
who is a member of the New Hampshire bar in good standing. RSA 507:15-a, il(a).
SO ORDERED.

7) L'JLXHl)-----

Mav 20.2020

Judge N. WBfiamt5e«&

Date

2

